U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

September 16, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Agusto Niz-Chavez v. Barr,
No. 19-863
Dear Mr. Harris:
The Court granted the petition for a writ of certiorari in the above-captioned case on June
8, 2020, and petitioner’s opening brief was filed, on extension, on August 6, 2020. The brief for
the respondent is currently due September 21, 2020, on extension.
Pursuant to Rule 30.4 of the Rules of this Court, respondent respectfully requests an
extension of time, to and including September 25, 2020, within which to file the brief for the
respondent. If that extension is granted, the reply brief would be due October 26, 2020, which
will be 14 days before the November 9 oral argument in this case.
As related in an earlier communication with Denise McNerney, Merits Clerk, the requested
extension is necessary because the attorneys charged with responsibility for this case have been
occupied with other pressing matters and require a short extension to complete the final preparation
and printing of the brief for respondent. Counsel for petitioner does not object to this further
extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-0863
NIZ-CHAVEZ, AGUSTO
WILLIAM P. BARR, ATTORNEY GENERAL

HOLLY L. HENDERSON-FISHER
SKADDEN, ARPS, SLATE, MEAGHER & FLOM
LLP
ONE MANHATTAN WEST
NEW YORK, NY 10001
212-735-3000
HOLLY.HENDERSON@PROBONOLAW.COM
212-735-2000(Fax)
SUFEN HILF
HILF & HILF, PLC
1775 W. BIG BEAVER ROAD
TROY , MI 48084
DORAN J. SATANOVE
GIBSON, DUNN & CRUTCHER LLP
200 PARK AVENUE
NEW YORK, NY 10166-0193
212-351-4098
DSATANOVE@GIBSONDUNN.COM
212-817-9598(Fax)
ZACHARY C. SCHAUF
JENNER & BLOCK LLP
1099 NEW YORK AVE., N.W.
SUITE 900
WASHINGTON, DC 20001
202-639-6000
ZSCHAUF@JENNER.COM

DAVID J. ZIMMER
GOODWIN PROCTER LLP
100 NORTHERN AVE.
BOSTON, MA 02210
617-570-1000
DZIMMER@GOODWINLAW.COM

